U.S. f F�aA�3 O�e

 M �T�g�YL�aR

Assistant          General
       for Audit




          MEMORANDUM FOR         Thomas H. Fox
                    M/CFO, Michael T. Smokovich
           FROM:             A-AIG/A,    L.
          SUBJECT:	 Report to       Managers on Selected 

                    Internal Controls, Audit Report No. 0-000-99-002-F

               This is our Report to       Managers on Selected 

          Internal Controls. It is a companion report to the

          previously issued Report on         Financial Statements,

          Internal Controls, and Compliance for Fiscal Year 1998

          (Audit Report No. 0-000-99-001-F, March 
        The purpose

          of this report is to provide more technical detail on the

          internal control issues identified in the March 1, 1999

          report. Recommendation Nos.
     and 10 are made to the

          Bureau for Policy and Program Coordination (see pages 18­
          29). Recommendation Nos. 1 to 7 and 11 are directed to

          Office of Financial Management (see pages 7-17 and 29).

               While the report's 11 recommendations are focused on

          problems with existing systems and procedures, they need to

          be considered in the greater context of improving 

          overall financial management environment. When successful,

          improved financial management systems that comply with the

          requirements of the Federal Financial Management Improvement

          Act will help ensure that       can produce complete,

          reliable, timely, and consistent financial information and

          statements.  In turn, these information and statements can

          be audited and receive an opinion from the Office of

          Inspector General.

               We received and considered your comments provided to

          the draft report. This report contains 11 recommendations

          to improve         internal controls for the preparation of

          its annual financial statements required under the 'Chief

          Financial Officers' Act. Based on your comments to the

          draft report, we acknowledge your agreement with the

          conclusions contained in the report. We look forward to


                                        02CC3Pennsylvania Avenue NW
                                          Washington, D.C. 20523
                              2


conclusions contained in the report.  We look forward to

receiving your 
      response to the draft report that will

contain your detailed plans to address the recommendations.


      I would like to express my sincere appreciation for the

courtesies extended by your staffs to the auditors over the

past year.   The collaborative approach used by our staffs

this year, together with the systems improvements you

indicate have been made, may ensure a successful audit next

year.   The Office of Inspector General is looking forward to

working with you on the audit of the Fiscal Year 1999

financial statements.


Attachment:   a/s


Distribution:


Bureau for Legislative and Public Affairs

Bureau for Management

Bureau for Policy and Program Coordination

Bureau for Management, Audit Liaison

Bureau for Policy and Program

     Coordination, Audit Liaison

Office of the General Counsel 

Office of Management Planning   Innovation

Office of Financial Management

Director, 

Press Relations Division 

Development Experience Information Division

                                                    1

Office of Legal Counsel and Management              12

Deputy Assistant Inspector General

     for Audit,                                     2

Other OIG Offices
                             1 each

REPORT TO        MANAGERS ON SELECTED
              INTERNAL CONTROLS    .



            oF Ppin uPAn MIMMMIssIMM�IE
                .tp�Rn




                  Financial Audit
                                  . EXECUTIVE SUMMARY



The Office of the Inspector General is providing this management report to you to
communicate detailed information about the issues reported in our Reports on
Financial Statements, Internal Controls. and Compliance for Fiscal Year 1998.’ As stated in
that report. the Government Management and Reform Act of 1994 requires the U.S. Agency
for International Development            to prepare consolidated financial statements and
have them audited for inclusion in the government-wide financial statements. This law and
other applicable auditing standards require the Office of Inspector General to:

         express an opinion on the financial statements including performance overview
         information:

         report related internal controls weaknesses; and

�        report noncompliance with applicable laws and regulations.

As stated in our audit report, we could not express an opinion on             financial statements
because our audit was impaired. Deficiencies in                financial, accounting, and
performance measurement systems and other previously reported material internal control
weaknesses caused this impairment. These deficiencies in                  accounting and financial
management               created consequential risks that the financial statements, including the
performance overview information, could contain material misstatements. The amount of
substantive testing required to express an opinion on the fairness of the presentation of
           financial statements would have been prohibitive and unattainable by the statutory
deadline of March 1. 1999, for submitting the audited financial statements to the Office of
Management and Budget (OMB). Accordingly, we have not made an opinion on the fairness
of the financial statements. Among the most significant impairments were (1) the weak
internal controls in the accounting and financial management systems and (2) the lack of
complete. reliable, timely and consistent financial information.

With respect to           internal controls, the accounting and financial management systems
did not meet Federal standards.             existing financial management systems have
experienced significant internal control problems which, when combined with the challenges

          Reoorts on           Financial Statements, Internal Controls. and               for Fiscal Year 1998
(Audit Report No. 0-000-99-001-F, March 1, 1998).
       According to OMB Circular A-127 and the Chief Financial Officers’ Act, a tinancial management
system includes supporting systems that contain the information needed to carry out tinancial management
functions, manage financial operations, and report financial status information. The systems provide the
information managers need to (1) carry out their          responsibilities, (2) deter fraud, waste, and abuse; and
(3) relate tinancial consequences to agency program performance. Thus, in addition to basic accounting
functions,            financial management system includes supporting systems that perform performance
measurement, budget, and procurement functions.


                                                        i
associated with developing a new core accounting system, call into question               ability
to implement an effective Agency-wide financial management system.                 needs to
address the internal control problems noted below as part of its overall strategy to improve its
financial management systems as it brings the new core accounting into use.

This report provides information on several significant internal control weaknesses that
hinder         management’s ability to develop accurate financial statements and provide us
with reasonable assurance about the completeness, reliability, and consistency of financial
information with existing systems. Six of the more significant internal controls problems
included:

                    Information to                         The Office of Financial
                                                                                3
        Management reported questionable financial data in its budget reports to federal
        oversight agencies. This occurred because of inaccuracies in preparing the reports
        and the use of inconsistent and unreliable sources. Further,         did not submit all
        required reports to the OMB. As a result,          continues to report unreliable and
        unsupported financial data to federal oversight agencies. (See report page 5 7).

                      Information with U.S Treasury The Fund Balance with Treasury
        reported on             Fiscal Year 1998 financial statements may be less than reliable.
                 did not properly reconcile differences identified between its general ledger
        and the U.S. Treasury records. Instead,           posted unreconciled adjustments of
        about $590 million into its’general ledger to match the U.S. Treasury records. This
        occurred because            did not properly research and reconcile differences
        identified between its general ledger balances and the U.S. Treasury balances
        throughout the fiscal year. As a result,           fund balance with Treasury line
        item in the financial statements may be misstated. (See report page 8 11).

        Rescheduling and Valuation Direct Loan Portfolio Our review of payments
        received and recorded against individual loans did not reveal any material errors or
        irregularities. However, we did identify areas for improvements. The primary areas
        were the loan rescheduling process, the reporting of direct loan assets at net present
        value, and the recording of accrued interest.

        As of September 30, 1998, the Loan Management Division had a backlog of loans for
        about 10 countries to be rescheduled. Information necessary to determine the number
        of loans and their value was not available at the time of our review. This backlog
        resulted because rescheduling was completed on an as-time-permits basis.

        Regarding the valuation of assets at net present value,           calculated and
        recorded the allowance for doubtful accounts for its direct loan program according to
        instructions received from OMB. However, those instructions did not allow
        to recognize the direct loan assets at their net present values according to Federal


         The budget reports are the Office of Management and Budget’s Standard Form 133, Report on Budget
Execution, which reports budgetary resources, status of budgetary resources and relation of obligation to
outlays. These reports are due to Office of Management and Budget quarterly.


                                                    ii
Accounting Standards Advisory Board (FASAB). If the controls over the
rescheduling and allowance process were strengthened,             would be able to
recognize the necessary increases or decreases to its asset values resulting from
capitalized interest on rescheduling loans, where necessary, and record direct loans at
their net present values. (See report pages 11 15).
Disbursing Under Letters of Credit        Causes Problems on the
Financial Statement        did not properly identify, record, and report
advances made to grantees through the letter of credit system-approximately
$1.7 billion annually. In accordance with             Office of Financial
Management policy, these advances were not recorded against the proper
obligation. Instead, the advances were recorded at the grantee level, without
regard to the corresponding grant obligation.            systems did not
provide reliable information to Program Managers and Project Officers. As a
result, program managers cannot determine fund availability for their projects
or identify funds that could be put to better use. To compensate for this
deficiency, some managers contacted the recipients and obtained necessary
financial status information.

This material weakness also impacts            ability to prepare auditable financial
statements. Specifically, this material weakness hinders            ability to:

�   provide Program Managers timely information;

�   estimate the incurred expenses against the outstanding advances; and

    report the status of their budgetary resources.

Further, no management oversight audit trail exists to trace a specific disbursement
through liquidation at the appropriate obligation level. Despite the fact that we
reported this deficiency in our previous Government Management Reform Audit
Reports,         did not address this matter as directed by a June 22, 1998, OMB
memo. In this memo, the OMB directed that each agency submit a plan, including
milestones, for resolving financial reporting deficiencies identified by auditors on or
before September 30, 1998. (See page 15 16).

             Accrued             and Accounts Pavable                  current
methodology for calculating accrued expenses and related accounts payable does not
meet the requirements of the federal accounting standards. This methodology
computes accrued expenses on a straight-line basis for all unliquidated obligations,
unless other means are established at the time of the obligation, and utilizes the
schedule completion date. This occurred because                           did not
perform a year-end review of all unliquidated obligations to ensure that the
outstanding unliquidated obligations were needed during fiscal years 1997 and 1998.
According to             officials, the schedule completion dates maintained in the
New Management System are not properly updated. Additionally, we found that


                                        ���
               overseas missions reported accrued expenses and related account payables
       after the payments        made by other            locations. As a result,  may
       have overstated their liabilities for fiscal year 1998. (See page 16 17).

                   Performance Information               needs to improve its internal
       controls to better ensure that operating units report program results that were
       objectively verifiable, supported. accurate, complete and/or validated. In addition,
       improved internal controls should be developed so that            consistently and
       reliably measures and reports achievements at the operating unit and
       levels that were attributable to USAID-funded activities.                  needs to
       report accurate and complete funding data in its Congressional Presentation
       pertaining to the level of funding from host governments and other donors which
       supports activities contributing to the achievement of            strategic objectives at
       the operating unit level. (See page 18 29).


For our audit of           1998 financial statements, we statistically selected and reviewed
the financial transactions at 10 missions. This report includes examples of some of the
problems noted. Specific details on all conditions found have been reported by the individual
Regional Inspectors General reports to the responsible mission management officials.

This report provides 11 recommendations to assist           management in improving
internal controls and compliance with laws and regulations.




Office of Inspector General
March 29. 1999




                                               iv
                                Table of Contents

                                                                Page

EXECUTIVE SUMMARY                                                   i


INTRODUCTION                                                       1


REPORT OF AUDIT FINDINGS                                           3


     Background on Internal Controls                               4


     Deficiencies in Financial Management Systems

        Cause Unreliable Information                               5


            Reporting Information to Oversight Agencies            5


            Reconciling Information with U.S. Treasury             8


            Rescheduling and Valuing Direct Loan Portfolio        11


            Disbursing Under Letters of Credit Policy Causes

               Problems on the Financial Statement                15


            Calculating Accrued Expenses and Accounts Payable     16


            Reporting Performance Information                     18


            Complying with OMB Bulletin 97-01                     29


APPENDICES


SCOPE AND METHODOLOGY                                              I


      MANAGEMENT COMMENTS                                         II


OIG EVALUATION OF 
             MANAGEMENT COMMENTS              III


SCHEDULE OF PROPOSED AUDITOR ADJUSTMENTS                          IV

This Page Left Intentionally Blank
                                  INTRODUCTION




Background
The United States Agency for International Development               was created in 196 1 to
advance the United States’ foreign policy interests by promoting broad-based sustainable
development and providing humanitarian assistance.              has an overseas presence in 60
countries; 42 of which have fully operational and formal            missions. In fiscal year
1998,         had total obligation authority of $6.6 billion, supported by $500 million in
operating expenses.

Under the Government Management Reform Act of 1994,                   is required to submit
audited financial statements to the Office of Management and Budget and appropriate
Congressional Committees. Pursuant to this Act,             has prepared statements of
financial position, operations, changes in net position, and related footnotes for the 1998
fiscal year.



Audit Objectives
OMB Bulletin No. 98-08 (dated August 24, 1998) established the audit requirements for
Federal financial statements. For fiscal year 1998, this Bulletin required the    Office
of Inspector General to:

       Determine whether                Principal Statements present fairly-in all material
       respects-in conformity with Federal accounting standards, the         assets, liabilities,
       and net position, (2) net cost, (3) changes in net position, (4) budgetary resources, (5)
       reconciliation of net costs to budgetary obligations, and, if applicable, (6) custodial
       activity.

       Obtain an understanding of the components of internal control and assess the level of
       control risk relevant to the assertions embodied in the class of transactions, account
       balances, and disclosure components of the financial statements.

       Perform tests of compliance with laws and regulations that could have a direct and
       material effect on the Principal Statements and Required Supplementary Stewardship
       Information, and any other laws, regulations, and government-wide policies identified
       by OMB.
      Assess whether the Principal Statements and Required Supplementary Stewardship
      Information and manner of its presentation in the Overview of the Reporting Entity
      and other accompanying information is materially consistent with the information in
      the Principal Statements and Required Supplementary Stewardship Information.


See Appendix I for the Scope and Methodology
                                  REPORT OF AUDIT FINDING




 We attempted to audit the financial statements of        as of September 30, 1998.
 However, our report” on these statements disclaims an opinion on whether they are presented
 fairly because the scope of our work was impaired.

 In planning and performing our work to report on these financial statements, we obtained an
 understanding of the internal control structure. In this regard, we:

          obtained an understanding of the design of relevant policies and procedures;

          determined whether they have been placed in operation; and

          assessed control risk.

We obtained an understanding of the internal control structure to determine our audit
 procedures for reporting on the financial statements. not to express an opinion on the internal
 control structure. Accordingly, we do not express an opinion on this structure.

 Nevertheless. we noted certain matters involving the internal control structure and its
 operation that we considered reportable conditions? Some of these conditions are considered
 to be material weaknesses? This report identifies these conditions and provides
 recommendations for their correction.




          Reports on             Financial Statements. Internal Controls. and               for Fiscal Year 1998
 (Audit Report No. 0-000-99-001-F, March 1, 1998).
          A reportable condition is a condition that, in our judgement, represents a significant deficiency in the
 design of operation of an internal control which could adversely affect            ability to record, process,
 summarize, and report information on its             statements.
          A material weakness is a reportable condition in which the design of operation of the internal control
 does not reduce to a relatively low level the risk that a material misstatement-material to the financial
 statements--could occur and go undetected over a period of time by employees in the normal course of
 performing their functions. An error or a fraud could cause the misstatement.


                                                          3
Background on Internal Controls
Under the Accounting and Auditing Act of 1950, the Federal Managers’ Financial Integrity
Act of 1982 and implementing policies established by OMB,                management is
responsible for establishing and maintaining effective systems of internal controls. To fulfill
this responsibility, management must make estimates and judgments to assess the expected
benefits and related costs of internal control policies and procedures. The General
Accounting Office issued Standards for Internal Controls in the Federal Government that
executive agencies must follow in establishing and maintaining the effective internal control
structure required by the laws and executive branch policies.

The internal control objectives, according to OMB Bulletin No.           are to provide
management with reasonable-but not absolute-assurance that:

       transactions were properly recorded and accounted for to permit the preparation of
       reliable financial statements and to maintain accountability over assets;

       funds, property, and other assets were safeguarded against waste, loss, unauthorized
       use, or disposition;

       transactions, including those related to obligations and costs, were executed in
       compliance with (1) laws and regulations that could have a direct and material effect
       on the financial statements, and (2) any other significant laws and regulations for
       which compliance can be objectively measured and evaluated; and

       data that support reported performance measures was properly recorded and
       accounted for to permit the preparation of reliable and complete performance
       information.

Because of inherent limitations in any internal control structure, errors or irregularities may
occur without detection. Also, predicting whether the internal controls will be effective in
the future is risky because changes in conditions may require additional controls or because
the effectiveness of the design and operation of policies and procedures may deteriorate.

The following section presents our findings and recommendations for those matters that we
considered as reportable conditions and material weaknesses.
Findings
Deficiencies in Financial Management
Systems Cause Unreliable Information

          core financial, performance measurement, managerial cost accounting, and budget
systems have widespread deficiencies. These systems do not meet federal standards that
establish the minimum requirements needed to perform effectively.               disclosed many
of the systems’ deficiencies as material internal control weaknesses in its fiscal year 1998
Accountability Report.          also properly reported deficiencies in these systems to Office
of Management and Budget and developed a plan to integrate its financial management
systems as required by the Federal Financial Management Improvement Act.

During the review of the 1998 financial statements, a number of reportable conditions were
identified. The two most significant conditions-failure to meet minimum federal system
standards and inadequate computer security measures-were reported in the Report on
          Financial Statements, Internal Controls, and Compliance for Fiscal Year 1998.’
This report discusses, in more technical detail. aspects of these conditions. The detailed
areas being discussed in this report are:

         Reporting information to oversight agencies;
.        Reconciling information with U.S. Treasury;
         Rescheduling and valuing direct loan portfolio:
.        Recording disbursements and accounts payable;
.        Reporting accurate performance information; and
.        Complying with OMB Bulletin 97-01.

We consider all of the above six areas to be reportable conditions that are material
weaknesses in            internal control structure. Any of these six conditions could result
in a material misstatement occurring in the financial statements that could go undetected by
         financial management staff in the normal course of performing their functions.


         Reporting Information to
         Oversight Agencies

The Office of Financial Management submitted inaccurate and unsupported budgetary data
in its budget reports* to federal oversight agencies. Further,   did not always submit

         Reports on            Financial Statements, Internal Controls, and             for Fiscal Year 1998
(Audit Report No. 0-000-99-001-F, March 1998).
         The budget reports are the       ����Management and Budget’s Standard Form 133,              on
Execution, which reports budgetary resources, status of budgetary resources, and relation of obligation to
outlays. These reports are due to Office of Management and Budget quarterly.
the required budgetary reports. This occurred because the Office of Financial Management
used inconsistent and unreliable sources to prepare these reports. Additionally, delays in
consolidating mission data through the accounting system resulted in information not being
available for submission. As a result, future         appropriations may be adversely
affected because unreliable and unsupported financial data is being reported to federal
regulatory agencies that make decisions about           appropriations.

The federal policy governing reporting by federal agencies to OMB and the U.S. Treasury is
contained in the GAO’s Policy and Procedures Manual.’ This policy states that:
       Accounting systems must provide full and prompt financial information to
       meet external reporting requirements and internal management needs. The
       reports, statements, and related disclosures that the system produces must be
       accurate, useful, complete, timely, and consistent to fairly present information
       needed by management for external reporting and for (1) planning and
       programming, (2) budget formulation, (3) budget execution and accounting
       (including controlling assets, liabilities, and operations and managing
       activities), and (4) audit and evaluation of program and management
       effectiveness.

The policy provides that (1) both internal and external reports should be prepared from the
same source data and should be in agreement; (2) all financial data presented in the reports
must be accurate; and (3) financial data reported should be derived from accounts that are
maintained on a consistent basis from period to period. The policy further states that when
reports are manually prepared. they should result directly from financial data coming from
the system and should be prepared by designated individuals knowledgeable of the reporting
requirements and be reviewed and approved by supervisory personnel. It also states that a
system that consistently produces inaccurate data will result in users establishing alternative
sources of information or carrying out their activities with inaccurate information.

Based on our review, we found the following problems with reporting of information to
oversight agencies:

       The Office of Financial Management did not submit the required SF- 133 reports for
       the first quarter of fiscal year 1998. In addition, the Office of Financial Management
       did not file 59 of 107 budget reports for the second and third quarters of fiscal year
       1998. The Office of Financial Management attributed these conditions to the lack of
       overseas Missions closing of their accounting records and problems with the U.S.
       Treasury’s Government On-line Accounting Link system.




       GAO’s        and Procedures Manual ‘Chapter 3, Financial Reporting
         For several line items on selected budget reports for March 3 1998, the Office of
         Financial Management did not report information that was consistent with
         information for the same items in           general ledger. The Office of Financial
         Management could not provide adequate supporting documentation to substantiate
         the balances reported. Office of Financial Management staff stated that unsupported
         amounts were posted in the reports to force a balancing of the two sections of the
         report-the budgetary resources and the status of budgetary resources.

            of June 30, 1998, a difference of approximately $5.9 million was identified
         between the unobligated balances on the budget reports submitted to the U.S.
         Treasury and the general ledger. The personnel attributed the differences to human
         errors in preparing the budget reports and errors identified in the prior year’s
         End Closing Statement. In fiscal year 1997,             reports contained material
         differences of $143 million in its year-end closing statement. As a result, the budget
         reports for June 30, 1998, as well as future budget reports, contained inaccurate
         information.

         The Office of Financial Management may have transferred unobligated funds
         between            expired accounts and no-year accounts. These transactions may
         not be in accordance with the governing appropriation legislation. According to
         Section 5 11 of the appropriation legislation,” only funds that have been obligated can
         be deobligated, if not needed, and be available for re-obligation at a later date. We
         found that there was no support that the funds transferred were originally obligated
         and/or deobligated. According to Office of Financial Management staff, the amounts
         transferred from the expired accounts to the no-year account were obtained from the
         unobligated balance column in the prior year’s year-end closing statement.
         According to Office of Financial Management personnel, these amounts were
         obligated during their period of availability.

We found that most of these problems can be attributed to financial systems problems and
the lack of adequate internal procedures and second party reviews.

         Recommendation No. 1: We recommend that                                       of Financial
         Management:

         1.1	     Identify and resolve deficiencies in its general ledger to ensure that
                  accurate information can be produced and consolidated at the



         Section 5        P.L. 105-l 18, Foreign Operations.         Financing. and Related Programs
                 Act, 1998, states that...any funds made available for the purposes           1       I and
chapter 4 of part II of the Foreign Assistance Act of 1961, which are allocated or obligated for cash
disbursements in order to address balance of payments or economic policy reform objectives, shall remain
available until expended.
                  appropriation level to enable reporting accurate data to federal oversight


         1.2	     Develop and implement procedures requiring second party reviews be
                  preformed on key external reports to ensure that financial data is
                  accurately reported, properly supported by the general ledger, and filed
                  within the prescribed timeframes.


         Reconciling Information

         with U.S Treasury


The Fund Balance with Treasury line item in               financial statements may be less than
reliable. This occurred because          posted unreconciled adjustments of a net $60 million
($590 million in absolute dollar value) to force its fund balance to agree with the U.S.
Treasury records and avoided submitting materially inconsistent financial information to
OMB and the U.S. Treasury. In addition, we noted that               Missions had similar
problems with reconciling their fund balance differences with the U.S. Treasury. These
reconciliation problems occurred because             did not properly complete its
reconciliations throughout the fiscal year. Additionally,           did not research and resolve
the differences identified between            general ledger and the U.S. Treasury’s records.

All federal agencies must, as a matter of policy and requirement,” reconcile, in a timely
manner. their records with the U.S. Treasury’s records. Based on guidance to               the
U.S. Treasury considers 3 months to be a reasonable standard of timeliness. The
reconciliation process contains two steps. The first step is to identify the differences between
          and the U.S. Treasury’s records. The second step is to research and resolve these.
differences. Some of the differences are timing differences that will be eliminated with the
passage of time, while other differences are errors that must be corrected.

Our review found that           consistently completed the first step. However,         did
not effectively and consistently complete the second step. As a result,           fund balance
with Treasury line item in the financial statements was potentially misstated. Additionally,
unresolved differences provide a window for waste, fraud, and abuse of the Government’s
cash assets and is an indication that         is not properly managing the budget authority
granted by Congress, thus, may increase the U.S Treasury’s need to borrow from the public.
Therefore, the U.S. Treasury had a need to borrow from the public. The following are
examples of            reconciliation problems we identified:

                  did not reconcile its disbursements, Statement of                 report (SF
                and deposit records to its general ledger account balance in a timely manner.

        General Accounting Office’s Policy and Procedures Manual for Guidance of Federal Agencies, (Title
2, Appendix III, Chapter 2, August 1987) and U.S. Treasury Financial Manual, Bulletin No. 98-07, Volume 1
        The Statement of Transactions report (SF-224) is a monthly statement of payments and collections for
         This occurred because           did not research and clear differences monthly.
         Instead,         adjusted the cash differences in its account by $353 million to bring
         its fund balance in agreement with the U.S. Treasury’s balances. Additionally,
                 did not perform second-party reviews on the Statement of Transactions to
         ensure that transactions were properly recorded.

                 did not resolve, in a timely manner, its differences with the U.S. Treasury on
         the Statements of                report (SF 6652). In fiscal year 1998, the Office of
         Financial Management did not resolve, in a timely manner, the differences reported
         on the SF-6652, Statement of Differences. Good financial management practices
         indicate that as a federal agency,         should clear reconciling differences within
         2-3 months. Our analysis of the SF-6652, Statement of Differences, revealed that, in
         some instances, differences were outstanding for periods exceeding 10 months for
         cash disbursements.

                 continued to have a large volume of fiscal year 1997 payment records that
         were not entered into the accounting records. This occurred because          initially
         entered the records into the old accounting system.         personnel identified
         approximately $20 to $32 million in 1997 payments that had not been entered in the
         New Management System as of September 30, 1998. The payments were made on
         fiscal year 1997 payment schedules and should have been entered into the accounting
         records by September 30, 1997.

         IJSAID adjusted its overseas missions’ books by about $237.5 million in the
         account to bring the missions’ cash ledger and U.S. Disbursing Officers’ statements
         in agreement with the U.S. Treasury’s records. This occurred because the missions
         had not cleared differences in a timely manner.

         The G-2 report,‘” Mission Disbursement Reconciliation Listing, was not being used
         effectively by the missions to identify and resolve errors found in
                                data. We found that missions were not reporting the
         reconciling items on line G-2 of the U 101 report to                      and some
         missions were not performing the G-2 reconciliation at all. Last year,
         adjusted its missions’ books each month to force them to balance with the U.S.
         Treasury balances. This was a direct result of the missions not reconciling timely and
         reporting incomplete data to                      on the U 10 1 report.



that agency to the U.S. Treasury. The SF-224 is due by the working day of the month.
         The Statement of Differences report (SF-6652) is a report that reflects the monthly differences between
         SF-224, Statement of Transactions, and U.S. Treasury’s records. This report is required to be
reconciled with differences being          and resolved within 3 months.

         The G-2 report, Mission Disbursement Reconciliation Listing, is sent to the missions monthly by the
                    Central Accounting and Reporting division.
        Missions did not receive or review the Mission Disbursement Reconciliation Listing,
        also known as the      report, and follow up on the individual differences to detect the
        errors and correct the balances in the Missions’ monthly summary report to
        headquarters. Missions did not include or resolve the G2 reconciling items in a
        timely manner. At September         1998. there were approximately $110               in
        cash differences in the missions’        reports and the U.S. Treasury’s balances.
        According to a financial management staff member, missions are responsible for
        clearing G2 differences. For example,               Salvador could not reconcile its
        records to the G-2 report for the total cumulative reconciling item amounts. In
        August 1998, one appropriation, 72X 102        showed a cumulative unreconciled
        balance of $580,104, whereas                Salvador’s       report showed
        ($2.022.374). This resulted in a net unexplained difference of
        According to              Salvador’s personnel, additional detail information regarding
        the cumulative reconciling items was requested from                 but no information
        has been provided. Without the requested detailed information.                Salvador
        was unable to identify the causes for the differences in the cumulative reconciling
        items.

        attributes its delay in clearing differences to problems encountered with the
processes related to the On-line Payment and Collections System. Other factors that we
noted that may have contributed to the Office of Financial Management’s inability to timely
reconcile the differences were:

        The Office of Financial Management does not have standard written procedures in
        place for performing monthly reconciliations and resolving clearing differences.

        Office of Financial Management staff may not be adequately trained to perform the
        reconciliations. For example, before the departure of an employee whose primary
        responsibility was to prepare and reconcile the Statement of Transactions, the Office
        of Financial Management efforts had just begun to train other employees in these
        responsibilities. Subsequent to the staff member’s unexpected death, the report
        preparation and reconciliation function has not been effectively continued. In August
        1998, the Statement of Transactions report was not submitted and in September 1998,
        the report contained a $22 million error.

According to Office of Financial Management personnel, there are no internal written
procedures in place. Office of Financial Management personnel further stated that they
would prepare written procedures in the future, but with the many changes being done with


          Monthly, overseas missions prepare a summary report that provides the status of their financial
activities recorded in the Mission Accounting and Control System (MACS). This report is known as the U-101
report.
             110 millions represent the absolute value-$33 millions in debit adjustments and $77 in credit
adjustments. The net value                 was $44 million.


                                                     10
the New Management System (NMS), it would not be cost-effective to produce them at this
time. We also found that there is limited follow-up on the mission reconciliation process.

As seen above, the fair presentation of            Fund Balance with Treasury line item on the
financial statement is dependent on a number of reconciliations. Without an effective and
timely reconciliation process, the Fund Balance with Treasury line item may be misstated. In
addition, the absence of an effective reconciliation process increases the risk for waste, fraud,
and abuse of            cash assets.

       Recommendation No. 2: We recommend that                      Office of Financial
       Management develop and implement procedures to:

       2.1	    Conduct, on a timely basis, accurate and complete reconciliation
               processes.

       2.2	    Identify fiscal year 1997 manual payment schedules and supporting
               documentation to facilitate the recording of proper accounting entries
               into            accounting records.

       2.3	    Provide training to Mission comptroller and chief accountants on the
               reconciliation process to emphasize the importance of this practice and its
               impact on the financial statements.

       2.4	    Provide closer monitoring over the Missions’ reconciliation process to
               ensure reconciling items is being resolved.


       Rescheduling and Valuing

       Direct Loan Portfolio


Material weaknesses in          direct loan program resulted in backlogs in the loan
rescheduling process, significant departures from federal accounting standards for calculating
allowances for bad loans, and calculation of accrued interest amounts. Information about the
number of loans, their value, and accrued interest was not available at the time of our review.
These weaknesses are further discussed below:

Backlogs in the Loan Rescheduling Process               did not complete rescheduling on its
related direct loans in a timely manner. Currently, there is a backlog of loans for about 10
countries for which rescheduling needs to be completed. According to Loan Management
Division officials, this delay in the completion of rescheduling occurred because
rescheduling was a time consuming, manual process that was done on an as-time-permits
basis.     officials also said that          General Counsel was not involved in the
rescheduling process.


                                               ��
As a result of the delays, the         financial statement did not recognize increases or
decreases to its asset from capitalized interest-a byproduct of rescheduling some direct
loans.         needs to complete all rescheduling for its direct loan portfolio and recognize
increases or decreases to its assets where necessary.

On May 1994,              approved its Loan Management Division Policy and Procedures
Manual for rescheduling loans. The procedure manual states that the Deputy Chief, Loan
Management Division, is responsible for the rescheduling program.           needs to update
the procedure manual and ensure that its requirements are clearly understood and
implemented by the staff.

       Recommendation No. 3: We recommend that Director, Loan Management
       Division:

       3.1	    Eliminate the backlog of loan rescheduling and recognize, where
               necessary, increases or decreases to the related asset values.

       3.2	    Update the current rescheduling policy procedure manual dated May 11,
               1994 to include procedures that would prevent the recurrence of a
               backlog.


   Determining the Allowance for Doubtful Accounts        The Federal Credit Reform Act of
    1990 requires that:

          direct loans disbursed and outstanding are recognized as assets at the
       present value of their estimated net cash inflows. The difference between the
       outstanding principal of the loans and the present value of their net cash
       inflows is recognized as subsidy cost allowance.

Under the federal accounting standard for loans, all loans must take into account payment
histories when calculating any allowances for losses.

The Loan Management Division computed the fiscal year 1998 Allowance for Doubtful
Accounts on its direct loan receivable using the Interagency Country Risk Assessment
System Rating model mandated by OMB. This rating is calculated by the Export and Import
Bank and is based on its risk analysis of each country’s credit worthiness. Factors such as
countries’ political stability, economic stability, and ability to pay back loans were
considered by the Export and Import Bank to assess the credit risk of a country. The model
does not take the loan payment histories into consideration. The alphabetic rate code is
assigned to each country based on the outcome of such analysis. The Export and Import
Bank established a present value factor for loans based on the numerical rating for each
country.


                                               ��
During fiscal year 1998,           used this methodology to determine the allowance for
uncollectible direct loans. complying with the Export and Import Bank model,
calculated an allowance for uncollectible direct loans that did not fully reflect the true
potential for losses in the 1998 financial statements.         recorded about $5.6 billion in
allowances for uncollectible direct loans. The amount of the direct loans associated with this
allowance was about $11.4 billion. As a result of reliance on            model,            Direct
Loans Allowance for Doubtful Accounts was understated and the related asset overstated in
nine countries in violation of Section 620 (q) of the Brooke Amendment by about $428
million. The following table lists adjustments that we believed should be made to accurately
reflect the correct allowance for doubtful account balances for the nine


                     FY 1998
                      Allowance for
                    Doubtful Account
                                                                           Recommended
                    Balance for Loan           Recommended
                                                                         Adjustment Amount
     Country           Receivables           Allowance Balance
    A                               11
    B                              18,252               87                              27   1,893
    C                                                                                           16
    D                               1,903                12.055.666
    E
    F
    G
    H                            848,767
    I
    Total                                                                                       1

                                               �e T��


       Recommendation No. 4: We recommend that the Director, Loan Management
       Division:

       4.1	    Perform an annual risk analysis on delinquent countries to determine the
               collectibility of their direct loans. Where necessary,       Loan
               Management Division should footnote their financial statements to show
               the impact of the additional allowance for the doubtful direct loans.

       4.2	    Develop and implement written allowance procedures to include full

               disclosure for 100 percent of the principal and interest amount for

               delinquent loans when countries/borrowers are in violation of the 


      APPENDIX IV provides the adjusting journal entry. (Listed as Adjustment No. 1).

                                                  13
                       Amendment. Additionally, the procedure should require a
               disclosure of the maximum allowance for direct loans covered by waivers
               when necessary.


Calculating Accrued Interest on Direct Loans                understated its assets related to
direct loan accrued interest.         Loans Management Division did not record accrued
interest for some direct loans, while for other loans, the accrued interest was recorded at
amounts lower than the interest earned for the period. This occurred because Loan Analysts
either did not compute interest for certain direct loans or used the incorrect number of days.
since the last payment was received on the related direct loans, in the calculation of accrued
interest. Therefore, direct loans accrued interest, as reported in           1998 financial
statements, was understated by about $55 million.

The following is an example of one of the Brazil’s direct loans reviewed, we found that the
Loan Management Division did not consider interest in arrears when recording accrued
interest. As a result, the accrued interest for this Brazilian was understated by about $4.5
million. We also found that one of Egypt’s direct loans, an incorrect payment date of July
     was recorded in the Loan Accounting and Inforrnation System. The authorized and
agreed to date was July        The effect of this error on the September 30, 1998 financial
statements was that interest was understated by about $1.8 million.

Additionally, when calculating accrued interest, the program used by the Loan Management
Division only calculated interest up through September 29, 1998. The program’s logic did
not use September      as the last day of the period. For the system to calculate interest
through September 30, the system algorithm should be changed to calculate interest on direct
loans up to October 1.

We forwarded an adjustment of about $55 million to          to correct the understated direct
loan accrued interest. On February 4, 1999, we received confirmation from             Office
of Financial Management that the adjustment was recorded and would be reflected in the
revised financial statements. Therefore, this report does not contain a recommendation for
        to correct the above understatement.

       Recommendation No. 5: We recommend that                Loan Management
       Division correct the program logic for calculating accrued interest to ensure that
                       is included in the calculation.




       APPENDIX IV provides the adjusting journal entry. (Listed as Adjustment No. 3).

                                                   14
                   Under Letters of Credit Policy
         Causes Problems on the Financial Statement

        did not properly identify, record, and report advances made to grantees through the
letter of credit system-approximately $1.7 billion in fiscal year 1998. Under its
interpretation of the U.S. Treasury’s “pooling” concept” for advances, the Office of
Financial Management adopted a policy of recording advances at the grantee level and not at
the obligating document level. Application of this policy has caused problems with
accurately (1) providing program managers timely information, (2) estimating the incurred
expenses against the outstanding advances, and (3) reporting the status of their budgetary
resources. These problems effect several material line items on the financial statements.
Further, no audit trail exists to trace specific disbursements through the liquidation of the
appropriate obligation.            did not address this matter as directed by OMB. OMB
directed          to submit a plan for resolving material financial and management
deficiencies identified by the agency’s auditors.

This policy impedes              ability to provide accurate information to program managers.
This occurred because advances are not posted against the proper obligation at the time of the
disbursement. The obligation only reflects the actual expenditures incurred once the
advances are liquidated. To compensate for this effect, some managers have resorted to
contacting grant recipients to obtain information about the financial status of their respective
grants. a result, program managers frequently cannot determine the availability of funds
for their projects or identify funds that could be put to better use.

        does not have any means to accurately estimate the incurred expenses against these
outstanding advances. Because the Office of Financial Management does not identify the
specific obligation or agreement at the time advance is disbursed, there is no means to
determine the status of the funds advanced through the letter of credit system. Furthermore,
        has not established an alternative methodology for estimating the incurred expenses.

         cannot accurately report the status of their budgetary resources.          did not
promptly charge the letter of credit advances to the proper funding appropriations during
fiscal year 1998. Instead,         charged letter of credit disbursements as advances to the
       1998 Development Assistance appropriation (known as carrier appropriation) on the
Statement of Transactions during fiscal year 1998. The value of these advances was about
$1.6 billion. As a result,        understated its post-closing balances in the carrier
appropriation and overstated its ost-closing balances in other funding appropriations on the
September 30, 1998                 As a result, while the reported balances are correct at the
USAID-level, individual appropriation balances are not correctly stated.

         Pooling is the consolidation of funding to the same recipient organization under one letter of credit
whereby the single accounting procedure within a single Federal Program Agency combines all advance
funding.

        APPENDIX IV provides the adjusting journal enuy. (Listed as Adjustment No. 3).

                                                        15
       Recommendation No. 6: Because              does not properly identify and record
       the letter of credit disbursements, we recommend the Office of Financial
       Management:

               Require all requests for advances through the letter-of-credit system
               include the specific obligation number and amount of the advance
               requested.

       6.2	    Identify the record that the advances disbursed through the 

               credit system against the proper obligation at the time of the

               disbursement.


       6.3	    Report this as a material internal control weakness in its fiscal year
               Accountability Report.

       6.4	    Establish a methodology for estimating the amount of incurred expenses
               that should be reported against the outstanding advances disbursed
               through the letter-of-credit system.


       Calculating Accrued Expenses

       and Accounts Pavable


         current methodology for calculating accrued expenses and related accounts payable
does not meet the requirements of the federal accounting standards. According to the Statement
of Federal Financial Accounting Standards No. 1,

       When an entity accepts title to goods, whether the goods are delivered or 

       transit, the entity should recognize a liability for the unpaid amount of the

       goods. If invoices for those goods are not available when financial

       statements are prepared, the amounts owed should be estimated.


The basic accounting principle behind accruing expenses and accounts payable at the end of
an accounting period is to match revenues against the expenses incurred during that
accounting period.

                      current methodology for calculating accrued expenses and related
accounts payable at the end of an accounting period is based on using unliquidated obligation
and scheduled completion dates as major factors. For fiscal year 1998, a total of about $2.6
billion was accrued within the accounting records as expenses and accounts payable using
this methodology. However,           did not review the unliquidated obligations to
determine whether these obligations continue to be valid and thereby relevant to be used in

                                               ��
the methodology.          also did not validate the scheduled completion dates recorded in
the accounting records. Office of Financial Management officials said that the scheduled
completion dates contained in the accounting records were not reliable. Without a continuing
need for unliquidated obligations or reliable scheduled completion date information, the
resulting accrued expenses and accounts payable calculated by the existing methodology are
questionable.

h-n seen in the table below, about $660.8 millions (29 percent) of the $2.6 billion in accrued
expenses and related accounts payable were based on          1 unliquidated obligations that
were 12 1 to 730 days or more past their scheduled completion date.



     Days Past                                                                    Percent of Total
    Scheduled            Number of             Unliquidated            Accrued       Accrued
    Completion          Transactions            Amounts                Amounts       Expenses
       Date
    Over 730                       2,824                                                97%
    366 to 730                     7,037                                                87
    181 to 365                     2,711                                                 12%
    121 to 180                       479          $2                                    102%
      Total                       13,051                                                2 9 %

                                                Table 2

          methodology for estimating accrued expenditures and accounts payable on grants
being funded under advances and letters of credit does not accurately reflect correct amounts
on the financial statements. For grants that received advances under a letter of credit, the
      of Financial Management was including the entire advance as an accrued
regardless of the actual status of any advance liquidations. We found that the Office of
Financial Management accrued expenses and related accounts payable on letter-of-credit
funded grants in the amount of $1.2 billion at September 30, 1998. We found that at
September 30, 1998, there were 1,636 in liquidating vouchers for the period that had not been
posted in the records. The value of these liquidating vouchers was in excess of $400 million.
Based on the information provided to the Office of Financial Management, an appropriate
adjustment was made to the financial statements.”

         methodology for including missions’ accrual and accounts payable on the financial
statements does not always reflect the correct amounts when advice of charge is involved.
We found that a number of Missions incorrectly calculated and reported to the Office of
Financial Management accrued expenses and related accounts payable on obligations that
had been paid by another accounting office. For these items, the Mission was unaware of the

       APPENDIX IV provides the adjusting journal entry. (Listed as No. 4).

                                                   17
payment status because the advice of charge had not been received or recorded at the Mission
at September 30,        For example,                  overstated accruals by approximately
$9.5 million. This occurred because nine               of charge received by the Mission
represented invoices already paid by                      before September 30, 1998. As a
result,                  accrued expenses and accounts payable were overstated by the
same amount.

          Recommendation No. 7: We recommend that            Office of Financial
          Management develop and implement a methodology for calculating their
          accrued expenses at year end in accordance with the Federal Financial
          Accounting Standards established by the Federal Accounting Standards
          Advisory Board.


          Reporting Performance Information

        did not have effective internal controls to ensure that operating units report program
results that were objectively verifiable, supported, accurate, complete and/or validated. Such
controls are required by Federal laws and regulations which require federal agencies to
develop and implement internal management control systems that: (1) compare actual
program results against those anticipated; (2) provide for complete, reliable, and consistent
performance data; and (3) ensure that performance information is clearly documented and
that the documentation is readily available for examination.

Our audit of the quality of performance data reported by operating units, which was based on
a statistical sample of 18         operating units, found that the operating units did not report
1996 results data (in their annual Results Review and Resource Requests (R4) reports
prepared in 1997) which were objectively verifiable, supported. accurate, complete and/or
               In fact, we found problems with 252 of the 302 results reviewed-or 83 percent.
Based on our statistical sample, we are 94 percent confident that the number of results data
reported in the        which were not objectively verifiable, supported, accurate, complete,
and/or validated ranges between 1,580 and 1,658 results reported for 1996 out of a universe
of 1,940. Examples of the problems include:

          Ninety indicators and reported results were not objectively verifiable. For example,
          one indicator and related unit of measure in one mission’s R4 was the percentage of
          “Development and implementation of a long-term self-sufficient financial strategy.”
          The R4 reported that the actual result for 1996 was 20 percent. However, this result
          was not objectively verifiable because specific criteria had not been established to
          objectively measure progress in implementing the anticipated self-sufficient financial
          strategy.

          Audit on the     of Results        in                 Units’ Results Review and Resource
Reauest                   in 1997 (Audit report No. 9-000-99-006-P, March 5, 1999).


                                                  18
�       Seventy-seven reported results were not sufficiently supported. For example, one
        indicator in a mission’s R4 was the “Length of time from opening of a preliminary
        investigation to achieving an investigative result.” The R4 reported 60 days.
        However, mission officials did not have supporting documentation for this data.

        Seventy reported results were not sufficiently accurate or complete (other than the
        results that were not objectively verifiable or supported). For example, one indicator
        in a                     operating unit’s R4 was “Primary school achievement” and
        the unit of measure was the “5th Grade completion rate.” The R4 reported that the
        rate for 1996 was 64.2 percent. However. documentation provided by the operating
        units showed that this was the percentage for             fiscal year 1996. In addition,
        the documentation showed that this was the percentage of children reaching grade
        five, not completing that grade.

The above problems existed because of deficiencies or weaknesses in the implementation of
internal controls. For example, operating units did not consistently follow, or were not
successful in following prescribed           policies and procedures. Also,
                     did not provide sufficient direction/support and oversight that required
operating units to follow those policies and procedures-and federal requirements-for
measuring and reporting on program performance.

Moreover, the Office of Inspector General (OIG) and others have previously reported
problems with           ability to report on program results, including inadequate
                   direction and oversight. For example:

        A joint               “SWAT Team” report issued in July 1992 stated: “There is no
        uniform guidance for oversight of field activities.” The report stated that the
        Washington office that should have played a major role in setting standards and
        defining responsibility for field activity monitoring failed to do so. As a result, there
        was no central guidance to Mission Directors to assure consistent and adequate field
        activity monitoring. The report concluded that a lack of uniform guidance and
        standards, compounded by inconsistent bureau requirements, creates confusion and
        weakens oversight. The SWAT Team report also concluded that without clearly
        articulated responsibilities and standards, neither Washington managers nor Mission
        Directors could be held accountable for oversight of field activities.

        Also, a 1995 OIG audit           identified that                     needed to provide
        direction and oversight to ensure operating units establish objectively verifiable
        indicators to measure program performance and report reliable performance data.
        The recommendations in that audit report to help correct the problems were closed

         Audit     on        Systems for                 Results (Audit Report No.           June
30, 1995).


                                                19

           based on the Bureau of Policy and Program Coordination and the Regional and
           Central bureaus being assigned the responsibilities to ensure that operating units
           follow prescribed guidance for monitoring program performance. Unfortunately, the
                              bureaus have not effectively implemented their assigned
           responsibilities.

In its fiscal year 1998 Accountability Report,          reported weaknesses in its performance
measurement system. Specifically, they reported that its performance reporting does not (1)
adequately link its performance goals with programs, (2) ensure sufficiently current results,
or (3) adequate quality of indicators which thereby limits the utility of these systems as a
management tool. They further noted that this material weakness impaired                 ability
to obtain, maintain, report and use reliable and timely performance information for decision
making.

In our opinion, without reliable performance data, decision makers have little assurance
whether an operating unit met, exceeded or fell short in achieving their program objectives
and related targets. The problems with performance indicators and reporting on performance
also impair operating units’ and         management’s abilities to (1) measure progress
toward achieving the operating units’ program objectives and (2) use performance
information in budget allocation decisions. The problems also impair               ability to
comply with laws and regulations; e.g., to have internal controls that ensure that reliable
information was obtained, maintained, reported and used for decision making. We are not
making a recommendation in this audit report to improve reporting by operating units
because such recommendations were made in an earlier audit

Reported                  Results Were Not Attributable to USAID-Funded Activities
        does not have an effective internal control system to ensure that it consistently and
reliably measures and reports achievements at the            operating unit and USAID-wide
levels that were attributable to USAID-funded activities. As a result, operating units and
                     report country-level results in their annual reports (e.g.,         Annual
Performance Report, Congressional Presentation and the performance overview section of
the Financial Statement Report) with little assurance that          activities had a clear and
measurable impact toward achieving the results

Various laws and the OMB implementing policies require federal agencies to establish
management control systems to measure and report on program performance. Examples of
those requirements include the following:

          The Chief Financial Officers Act requires agencies to develop a management system
          that provides for (1) complete, reliable, consistent, and timely information which is
          prepared on a uniform basis and which is responsive to the financial needs of agency

          Audit on the Oualitv of Results        in                 Units’ Results Review and Resource
Request                        in 1997 (Audit Report No. 9-000-99-006-P, March 5, 1999).


                                                      20
       management: (2) the development and reporting of cost information; and (3) the
       systematic measurement of performance.

       OMB Circular No. A-123, which is the executive branch’s implementing policy for
       compliance with the Federal Managers’ Financial Integrity Act, requires agencies to
       have management internal controls to ensure that (1) programs achieve their intended
       results; and (2) reliable and timely information is obtained, maintained, reported and
       used for decision making.

       OMB Bulletin No. 97-01 provides the form and content of annual financial
       statements (including the performance overview section) required under the
       Government Management Reform Act. This Bulletin states that the entity’s program
       and financial results should be expressed in terms of objective, relevant measures that
       disclose the “extent to which its programs are achieving their intended objectives”.
       This Bulletin also stipulates that agencies should strive to develop and report
       objective measures that, to the extent possible, provide information about the cost
       effectiveness of programs.

Over the past several years, the OIG and other (e.g., OMB, the General Accounting Office
(GAO), and Congressional staffs) reports have identified problems with              practice of
reporting greater results than it was actually achieving-both at the operating unit and
USAID-wide levels. For example:

       An OIG status report (Report No. 9-000-97-002-S dated March 31, 1997) on
       progress in implementing the Government Performance and Results Act (the Results
       Act) identified that, in most cases,          goals and objectives go beyond its span
       of influence. Therefore, it is extremely difficult for         to take credit for
       improving country-level results, even though it may be able to influence indicators
       such as per capita income in certain targeted areas (e.g., regions, cities, districts). The
       status report also noted that several recent OIG audits of strategic planning and
       reporting by          missions noted that missions had been reporting greater results
       than what they were actually accomplishing.

       The 1997 status report recommended that, unless               can clearly demonstrate the
       causal relationship of its activities to country-level results,         should (1) clearly
       demonstrate and describe how these relationships are reasonable, plausible and
       logical; and (2) review its definition in the Automated Systems Directives of
       “strategic objectives” to include parameters to ensure that           does not claim
       more results than it can reasonably attribute to its activities.

       In response to the findings and recommendations related to attribution,
       management agreed that individual operating units as well as             overall need to
       consider carefully the degree to which they can influence results, and, if there is no
       plausible relationship between the result and         activities, credit should not be

                                               ��
       claimed. However,            management believed that, because the audit report
       findings were based on a small sample and the number of “false positive results” were
       relatively small within the total number of results reported, the attribution problem
       may be less significant than implied and would certainly be reduced as missions
       become more skilled at reporting results and as bureaus become more skilled at
       interpreting such results.

       The Chairman of the House Committee on International Relations sent a letter to the
               Administrator in April 1998 which identified areas of concern with
       fiscal year 1999 Annual Performance Plan, which is required under the Results Act.
       Specifically, this concern related to misleading attribution of results
       claiming country-level results that were not attributed solely to its activities. For
       example, the letter identified that throughout the plan,         proposed to measure
       the results of its programs using macroeconomic and other nationwide indicators
       compiled by the World Bank. United Nations, and other international organizations.
       The Chairman noted that he did not believe Congress (or              could measure the
       success or failure of, for example, a sanitation project in Accra, Ghana, by reviewing
       Ghana’s national infant mortality rate. The Chairman stated that Congress needs
       specific measures of the actual project results, not nationwide indicators that are
       influenced by host government policies, other donor activities and external factors.
       The Chairman stated that the key is to determine what            projects do, not what is
       generally happening in the target government.

       In response to the Congressman’s letter,                          management (in a letter
       dated August 27, 1998) stated that             agrees with the Congressman that
       must use appropriate results measurement. In the Accra, Ghana, sanitation project
       example, management also stated that it would not be appropriate to use national
       infant mortality data to assess results for a project if the project affected only a
       limited geographical area. Management added that                 has struggled, and is
       likely to continue to struggle for some time, with the issue of attribution. Also, they
       added that          does not generally have a methodology that allows it to identify
       the extent to which          activities contributed toward achieving the strategic
       objectives, intermediate results, and indicators.

As part of the fiscal year 1998 financial statement audit, we reviewed 39 performance
indicators in the R4 documents for five overseas              to determine whether the
missions could support that            activities had a measurable impact on achieving the
reported results for those indicators. The purpose of the audit was to reconfirm the
previously reported findings that          was claiming greater results than it was actually
achieving and to convince           management on the need for them to take more timely and
focused action to correct the problems. We selected 39 indicators, which were chosen
because they appeared to be country-level indicators.

       Countries selected were Peru, Ukraine, Jordan, India, and Ghana.


                                                      22
The audit found that the-operating units could not       that         programs had a clear
and measurable contribution toward achieving the country-level results-for-37 of the 39
indicators we reviewed. Examples of these cases included the following:

        One mission’s indicator was the “Value of Expenditures per Capita of the Poor” to
        measure performance results under the strategic objective “Increased Incomes for the
        Poor.” The reported 1994 baseline and 1997 results were $447 and $507,
        respectively. However. mission officials could not provide any documents supporting
        to what extent           activities had a clear and measurable impact on achieving the
         1997 results. Furthermore, according to mission officials, during 1996 and 1997
                 spent about $130 million for achieving results under the strategic objective.
        During this same two-year period, the host government provided $6.9 billion in
        support of this strategic objective (according to the R4 and other documents provided
        by mission officials). The documents also show that other donors’ funding in support
        of this strategic objective totaled approximately $2.9 billion, but the documents did
        not identify the period of funding for these activities.

       Another mission indicator was the “Increase in Value of Horticultural Exports” which
       was under a special strategic objective for “Increased investment in agribusiness by
       private firms”. The reported 1997 result was $6 15 million for the indicator which
       represents national horticultural exports from April 1996 to March 3 1997,
       exports that included fresh/processed fruits andvegetables, spices, and floriculture
       products. However, mission officials could not provide any documents supporting
       the extent to which         activities had a clear and measurable impact on achieving
       this result. Furthermore,         obligations and expenditures in support of this
       strategic objective from fiscal years 1995 1997 totaled $4.5 million and $6.4
       million, respectively. This pales in comparison to more than $2 billion reportedly
       provided by private investments and other donors since 1992 in support of this
       strategic objective.

We recognize that the amount of funding is not the only factor used to determine the extent
to which             activities contribute towards achieving country-level results. However, in
our opinion, when               funding was relatively low in comparison to funds provided by
the host country, private investment, or other donors in support of results reported for
country-‘level indicators, it is difficult, if not impossible, to make a convincing argument that
          activities had a major impact. Without documents specifically showing the impact
that           activities had on achieving the reported results, we are unable to determine
whether             activities contributed toward achieving results reported for country-level
indicators.

We could not perform a comprehensive review of the overview section in the fiscal year
1998 financial statements related to the attribution problem. This occurred because
management did not provide us with a copy of the final overview section until
February 2,             by December 9, 1998 as stipulated in the audit “engagement letter”
agreed to by the Acting            Chief Financial Officer and our office. However, our review
did identify essentially the same problems as reported in our audit report last year on the
financial statements-i.e., the overview section reported high-level results that were difficult.
if not impossible, to attribute to         activities. Thus, the overview section did not meet
the requirements that an agency’s results should be expressed in terms of objective,
relevant measures that disclose the extent to which its programs are achieving their intended
objectives.”

In November 1998,            management sent our office a memorandum acknowledging that
        internal controls were not adequate to ensure that reported results at the operating
unit and overall          levels can be attributed to USAID-funded activities. As a result of
that memorandum, which requested that we cancel or revise our ongoing audit related to the
“attribution” issue, we curtailed our audit to only include five missions., Moreover,
acknowledged in the overview that its . ..performance reporting does not adequately link
          performance goals with its programs nor does it ensure current data results.”

Notwithstanding the curtailment of the audit, we identified the following three specific areas
where better direction and oversight are needed to ensure that         operational units and
                     report specific performance measures of actual            activities-not
country-wide results that were achieved by activities also funded by the host countries and
other donors.

       IJSAID policies and procedures do not require             operating units to clearly
       identify to what extent          activities contributed toward achieving strategic
       objectives. intermediate results, and related performance indicators. Instead,
       policies instruct operating units to establish strategic objectives which
       operating units, along with its partners, can materially affect and for which it is
       willing to be held responsible.”

               policies and procedures did not require that funding by other donors and host
       countries were appropriately identified and considered when           and its operating
       units (1) develop the country-level performance indicators and (2) claim or indicate
       that USAID-funded activities had an impact on achieving results under those
       indicators. In fact,       has not developed any criteria or internal controls for
       discussing host country and other donor funding in the R4 reports.

                            has not provided specific direction or guidance to its operating
       units that they should evaluate         activities specifically to determine whether
       those activities were clearly having an impact on achieving results reported for the
       indicators. TIPS No. 3, which is supplemental guidance under the Automated
       Directives System (ADS), does state that an evaluation might (1) test the validity of
       the hypotheses and assumptions underlying a results framework, and (2) identify and
       analyze unintended consequences and effects of assistance activities.
Therefore.          needs to take timely action to develop criteria and internal controls to
ensure that it consistently and reliably measures and reports achievements, both at the
         operating unit and USAID-wide level, that were attributable to USAID-funded
activities. Without such criteria and controls,         will continue to have problems trying
to convince Congress and others (e.g., OMB and GAO) that its programs were making a
significant contribution toward achieving country-level results, and continue to be in
noncompliance with various laws and federal policies.

       Recommendation No. 8: We recommend that            Bureau for Policy and
       Program Coordination develops and implements internal controls to:

       8.1	    Ensure that funding from other donors and host countries are identified
               to the extent possible and considered in developing country-wide
               indicators at both the operating unit and USAID-wide levels;

       8.2	    Ensure                           review of operating units’    and
                          Annual Performance Report provide reasonable assurance that
               the country-level indicators and related reported results are clearly and
               significantly attributed to USAID-funded activities or clearly identify the
               extent that           activities and other donors’ or host countries’
               activities contributed to achieving the reported results; and

       8.3	    Ensure that accurate and complete information on             partners’
               funding in support of operating units’ strategic objectives and indicators
               are identified in the


Inaccurate and Incomplete Funding Data in Its                        Presentation For Fiscal
Year 1999,           reported incorrect and incomplete data in its Congressional Presentation
pertaining to the level of funding from host governments and other donors which supports
activities contributing to the achievement of          strategic objectives at the operating
unit level. Policy guidance for the preparation of the Congressional Presentation is shared by
the Bureau for Legislative and Public Affairs, Bureau for Policy and Program Coordination,
and Bureau for Management.              guidance requires that it include:

       Activity data sheets for each objective that identified (1) what donors were
       involved with the activity and how much the donors and host government
       were providing and (2) major result indicators with specific targets to be
       achieved.

However, the requirement for funding data was not enforced for the 356 Activity Data Sheets
included in the      Congressional Presentation for Fiscal Year 1999. The OIG found
that the data was not accurate or complete for at least 350 activities-98 percent-as noted
below:

        funding data per other donors and recipients was not reported for 260 activities (73
        percent) even though the Presentation identified that other donors or the host country
        participated in the activity:

        funding data was not complete for 90 activities (25 percent); and

        funding data may have been complete for 6 activities (2 percent).

Examples of specific problems based on our audit of five operating units included the
following:

       The Presentation identified an activity at one mission to “Increase Incomes of the
       Poor.” The Presentation stated that the European Union, Japan, Germany, Canada,
       the Swiss and the Dutch are also providing considerable resources. The Presentation
       did not identify what activities were supported by other donors, how much funding
       was being provided by these other donors, or to what extent the activities funded by
       other donors were to increase incomes of the poor. Although the Presentation did not
       identify how much funding was being provided by these entities, other documents
       provided by mission officials showed that these entities provided, or would provide,
       $1.3 billion in support of this activity.

       The Presentation identified an activity at another mission that was for “Increased
       Investment in Agribusiness by Private Firms”. The Presentation stated that one
       international organization had invested over $80 million from its own resources in
       agribusiness activities similar to          activities. The Presentation also stated that
       other donors such as the European Union, United Nations organizations, and the
       World Bank have drawn on              experience to replicate some of the activities.
       However, the only funding identified for these other donors was that the World Bank
       “is designing” a similar $300 million activity. Moreover, the missions’ R4 prepared
       in April 1998 identified that host countries’ food processing business, which is
       covered under this activity, had attracted nearly $2 billion in private investments
       since 1992. Mission officials said that they were not aware of the $2 billion in private
       investments at the time the Congressional Presentation was prepared.

Inaccurate attributions occurred because            management did not provide adequate
directions to operating units to prepare the Congressional Presentation as required. Further,
         did not have adequate internal controls to ensure that accurate data on funding
provided by host countries and other donors in support of            strategic objectives are
reported in Congressional Presentations. For example, some operating unit officials noted
that; (1) they did not receive the request to provide the funding data until late December 1997
but were to submit the data to                        by early January 1998 and (2) the
requests for funding data did not stipulate the period of funding to be identified or what type
of data (e.g., obligations, commitments. or expenditures) were to be provided.

In our opinion, the lack of reasonably accurate data in             Congressional Presentation
on other funding in support of          strategic objectives (and related country-wide
performance indicators) impairs Congress’ and             ability to objectively assess the cost
effectiveness of           programs and the need for additional funding to accomplish
anticipated results. For example, the Presentation for one operating unit identified one
activity for proposed obligations of $20.8 million as well as major result indicators such as
reducing infant mortality from 57 (per 1,000 births) in 199 to 39 in the year 2001. It also
identified estimated host country and other donor contributions for the life of this strategic
objective as “over $100 million”. However, documents provided by the operating unit’s
officials showed that contributions from these partners for just the three-year period 1995­
1997 in support of this strategic objective totaled approximately $1.7 billion.

Therefore,        needs to develop better direction and internal controls to ensure that
reasonably accurate and complete data on host country and other donor funding in support of
       programs are presented in the Congressional Presentations.

       Recommendation No. 9:         We recommend that              Bureau for Policy and
       Program Coordination in working with the Bureau for Legislative and Public
       Affairs and the Bureau for Management develop internal controls to ensure
       accurate and complete information on             partners’ funding in support of
               strategic objectives are identified in Congressional Presentations.


        Cannot Identifv the Full Costs of Its Programs, Activities, and Outputs
       does not have a system to report on the full costs of its programs, activities and
outputs as required by federal accounting standards. According to these standards, such cost
information is needed by various parties for the following reasons:

       Government managers need to ensure that resources are spent to achieve expected
       results and outputs, and to alert managers about waste and inefficiency.

       Congress and federal executives, including the President, need to make policy
       decisions on program priorities and allocate resources among programs. Cost
       information will assist them in comparing alternative courses of action and in making
       program authorization decisions through the assessment of costs and benefits. They
       also need cost information to evaluate program performance.

       Citizens, including news media and interest groups, need to judge whether resources
       are allocated to programs rationally and if the programs operate efficiently and
       effectively.
 The Statementof Federal Financial Accounting Standards (SFFAS) No. 4 requires the
 reporting of performance information of federal programs and the changes over time in that
 performance in relation to the costs.” The cost assignment should be performed using the
 following methods listed in the order of preference: (1) directly tracing costs wherever
 feasible and economically practicable, (2) assigning costs on a cause-and-effect basis, or (3)
 allocating costs on a reasonable and consistent basis. The definition of full cost is:

         “Reporting entities should report the full costs of outputs in general purpose
         financial reports. The full cost of an output produced by a responsibility
         segment is the sum of (1) the costs of resources consumed by the segment that
         directly or indirectly contribute to the output, and (2) the cost of identifiable
         supporting services provided by other responsibility segments within the
         reporting entity, and by other reporting entities.”

         has a system that allows its missions to identify their program expenditures in

 support of their strategic objectives and activities (e.g., projects), but the system does not

 account for program funding at the output level. The system also does not provide for

 aggregation of costs at the operating-unit level that would permit 
            to identify the costs
 of its overall programs, activities and outputs. In fact,          has not yet defined what is
 meant by the terms “programs,” activities,” and “outputs” to meet the requirements of
SFFAS No. 4. The system also does not account for (1) operating and administrative costs;
 (2)                      funding in support of the missions’ strategic objectives, activities,

 and outputs; or (3) funding from other donors and host countries in support of 

 programs, activities and outputs.


         officials pointed out that SFFAS No. 4 became effective for the fiscal year 1998
 financial statements and that         was taking action to meet the requirements such as
 having training courses on the subject, with the first training course starting in September
 1998. The officials also said they were developing a system to allocate operating and
 administrative costs to programs. However, the officials believed it would take some time to
 resolve certain problems. For example, the officials stated that the terms used in the
 standards for program and activity were probably not consistent with               historical use
 of those terms.

 We recognize that SFFAS No. 4 became effective for the fiscal year 1998 financial

 statements. However, similar requirements have existed since 1968 under the Foreign

 Assistance Act that requires 
      to establish a management system that:

         ..        provide information to           and to Congress that relates agency
         resources, expenditures, and budget projections to such [program] objectives
         and results in order to assist in the evaluation of program performance, the
         review of budgetary requests. and the setting of program priorities.”
Therefore,         needs to take timely action to meet the requirements of the SFFAS No. 4
and the Foreign Assistance ‘Act. Not meeting the requirements for this cost information
impairs (1)        managers’ ability to make decisions in managing for results and (2)
       managers’ and others’ (e.g., Congress and taxpayers) abilities to assess the efficiency
and effectiveness of         programs.

       Recommendation No. 10:          We recommend that                 Bureau for Policy and
       Program Coordination:

        10.1	   Develop definitions of what is meant by “programs,” “activities,” and
                “outputs” as discussed in the Statement of Federal Financial Accounting
                Standards No. 4; and

        10.2	   Develop internal controls for identifying the full costs    program
                and operating expenses and funding by other donors and host countries)
                of        programs, activities, and outputs.


       Complying with OMB Bulletin

Our review of the final financial statements indicated that           did not disclose and report
the required information for fiscal year 1998 final financial statements in order to comply
with the OMB Bulletin No. 97-01, Form            Content of Agency Financial Stutements. In
addition,         reported inconsistent information in             final financial statements.
The following illustrates the problems noted in the 1998 financial statements.

       For the Statement of Net Cost,          did not develop responsibility segments,
       accumulate the costs, and report the full cost assigned to each responsibility segment
       as required by OMB. The methodology used by the Office of Financial Management
       in preparing the financial statement referred to above was not fully developed because
       the Office of Financial Management could not obtain the programs, activities, and
       output data needed from the Bureau for Policy and Program Coordination.

       IJSAID did not disclose the required items relating to the Balance Sheet, the
       Statement of Net Cost, the Statement of Budgetary Resources, and the Statement of
       Financing. For example,          did not disclose the Note for Statement of
       Budgetary Resources (7 items), the Note for Unexpended Appropriations, and the
       Note for Leases. Additionally,          did not adequately disclose information
       related to the Note for Fund Balance with Treasury and the Note for Interest and
       Penalties, Non-Federal- this footnote was reported separately from the Note for
       Credit Program Receivables and Liabilities for Loan Guarantees.
�
               did not report deferred maintenance on the Statement of Net Cost, net
       transfers prior-year balance, actual on the Statement of Budgetary Resources, and the
Statement of Supplemental Information by Major Appropriation. These financial
           lines should be made public.     did not properly label the captions.
namely, “Governmental” and did not change the required captions in the financial
(statements.

        did not report consistent financial statement information and had differences
totaling $1.3 billion (absolute value). For instance.        reported $176 million in
financial sources to be provided on the Statement of Financing and $417 in liabilities
not covered by budgetary resources on the Balance Sheet and did not disclose the
difference of the similar information, as required by the OMB Bulletin 97-01.


Recommendation No. 11: We recommend that the Office of Financial
Management:

11.1	   Resolve the inconsistent information reported in its final financial
        statements for fiscal year 1998.

11.2	   Prepare a checklist to ensure that future financial statements are
        prepared in accordance with the requirements of OMB Bulletin
        No. 97-01.
                                                                                          APPENDIX I
                                                                                                �o �PfP3eP3



                                        AND METHODOLOGY





Scope of Our Consideration of                                       Internal Controls
We obtained an understanding of the design of relevant policies and procedures and whether
they had been placed in operation to meet the objectives of the internal control structure
noted above. Further, we assessed the risks associated with             internal control
structure.

Our audit work included reviews of the financial related activities at 10
The results of our reviews are included below.

          financial management system does not have adequate internal controls. This lack of
adequate controls prevented us from obtaining sufficient evidential matter to conduct our
audit. These weaknesses in               internal accounting controls caused significant errors in
the recording of transactions during fiscal year 1998.      Many of the weaknesses have existed
for years. as identified in prior audit reports and         reports on internal controls.
disclosed many of these weaknesses in its fiscal year 1998 report under the Federal
Managers’ Financial Integrity Act, and new weaknesses identified during our fiscal year 1998
work

Methodology
In accomplishing our audit objectives, we reviewed significant line items related to
financial statements. These line items included: accounts payable, fund balance with
Treasury, direct loans, compliance with laws and regulations, and financial reporting. At the
ten missions, we reviewed advances. accruals, disbursements, and U.S. Treasury
reconciliations. Further, we contracted with an independent public accounting firm to review
and report on Office of Personnel Management’s (OPM) agreed-upon procedures relating to
           payroll.


          The ten missions selected for review were          Jordan, El Salvador, Peru, Kiev, India, Pretoria,
Morocco, Ghana, Bangladesh, and Cairo.                         was not reviewed because of political unrest in
that country. Cairo was not reviewed because our office received a request from the mission Administrator not
to include that site during our 1998 audit work. The G-2 report, Mission Disbursement Reconciliation Listing is
sent to the missions monthly by the                        Central Accounting and Reporting division.
          Although the Office of Financial Management made               entries after the close of the   year,
we were not able to review the entries because the       was late in closing its books and submitting the
financial statements to us for audit.
                                                                             APPENDIX I
                                                                                  YVoP3E3G 32


For the purpose of this report, we have classified          significant internal control
policies and procedures into the following categories:

U.S. Treasury Reporting This category consists of the policies and procedures for the
receipt of annual apportionment, the distribution of funds to allowance holders, the
commitment and obligation during spending actions. and the issuance of budgetary reports to
OMB and the U.S. Treasury.

Accounts Receivable This category consists of the policies and procedures associated with
establishing, recording, collecting, and maintaining records of miscellaneous receipts.

Credit Programs Receivable This category consists of the policies and procedures
associated with establishing, recording, collecting, and maintaining records of loans
disbursed and the repayment of those loans.

Fixed Assets This category consists of polices and procedures associated with the receipt.
storage, record keeping, and inventories of non-expendable assets.

Grants Disbursements/Accounts Payable       This category consists of the policies and
procedures associated with identifying, assembling, classifying, and recording transactions to
report the grant operating/program expenditures, unliquidated obligations, and accrued
expenditures. The amount of accrued expenditures establishes the accounts payable balance
at year-end.

Payroll This category consists of the policies and procedures associated with the
accounting for payroll costs processed through the payroll systems. Also included are
policies and procedures for reporting payroll-related information to the Office of Personnel
Management.

Financial Reporting This category consists of the policies and procedures associated with
the culmination of the previous internal control cycles after financial transactions have been
summarized and posted to the general ledger.

Compliance with Laws and Regulations This category consists of the policies and
procedures associated with ensuring compliance with laws and regulations for transactions
and events that may have a material effect on the financial statements, including the
requirements of the Federal Financial Management Improvement Act of 1996.

Performance Measuring This category consists of the policies and procedures to ensure
that the data which support reported measures of program performance were properly
recorded and accounted for to permit the preparation of reliable and complete information on
program performance.
                                                                             APPENDIX I
                                                                                  �o �P�P3eP�

Performance Reporting This category consists of the policies and procedures to ensure
that the information on program performance and manner of its presentation in the overview
section were materially consistent with the information in the principal financial statements.

We do not express an opinion on               internal control structure because the purpose of
our work was to determine auditing procedures for reporting on the financial statements, not
to express an opinion on this structure. We assessed control risk and performed limited tests
of the internal control structure. In assessing risks, we considered reports issued by
management under the Federal Managers’ Financial Integrity Act of 1982, a 1994
Self-Assessment Audit, as well as our prior and current audit efforts on financial and internal
control matters.

To accomplish our requirements with OMB             Section 9, “Agreed-Upon-Procedures”
and to determine           compliance with the U.S. Office of Personnel Management
Agreed-Upon Procedures for Retirement, Health, and Life Insurance
Withholdings/Contributions and Supplemental Semiannual Head Count, we contracted with
an independent contractor. Under the supervision of the OIG, the contractor performed the
Agreed-Upon Procedures as prescribed by Office of Personnel Management. The contractor
found that        reasonably reported Retirement, Health, and Life Insurance
Withholdings/Contributions and Supplemental Semiannual Head-Count information to
Office of Personnel                  Therefore, this report contains no recommendations
requiring        to take corrective actions.




                              with the U.S.    of Personnel Management          Procedures for
Retirement, Health, and Life Insurance                        and         Semiannual Head Count
(Audit Report No. 0-000-99-001-N, December 9, 1998).
                                                                        APPENDIX II
                                                                          Page 1 of 1


                   MANAGEMENT
                  COMMENTS




                                                       March 25, 


MEMORANDUM

TO:
                       Paui E. Armstrong

FROM:                      Larry A.

                 (Acting', Tony 

           Draft 
                                    Selected 

                     Controls

          memorandum           the Agency's formal response to the
draft companion report to the pFNrP9-Den          npF PpinP2n
financial statements, internal controls, and                  Fiscal

Year 

      We appreciate the considerable work that 
     report represents

and 
        be         to us in            our internal 

A.5 you know, we have had numerous discussions 
      the OIG, 

and the public              firm 
            us in preparing our

financial statements.    We look forward to continuing those

             (as early as 
               in determining the best

      of               our internal controls.

     We         note that 
 draf
 audit report 
       not reflect

the in-depth             we have had wit? regard to GPRA

                nor does 
                            discussrons

     we nave had over the last
              regarding managerial

cost accounting. We look forward to continuing to address these

           well 
 the 

                                                                             hcc�uay0n yyy
                                                                                    Page 1 of




                              OIG EVALUATION OF
                                    MANAGEMENT
                                  COMMENTS


           management officials commented that the report’s content would be helpful in
improving             internal controls. These officials pointed out that the report did not
reflect discussions recently held with the OIG concerning the Agency’s implementation of
the Government Performance and Results Act and the new cost accounting standard which is
required under the Federal Financial Management Improvement Act.

We believe that the report will be helpful in solving several longstanding internal control
problems. We also recognize that the report does not provide any details on discussion held
with the Bureau for Policy and Program Coordination. We believe that the recent
discussions-held after the end of fiscal year          provided good background information,
but were very general in nature. These discussions have offered the OIG an insight to what is
being planned for the Agency’s future implementation of the Government Performance and
Results and the new cost accounting standard. However, these discussions yielded little
specific information on the problems noted during the audit of the 12-month period that
ended September 30, 1998.

Although             comments did not address specific recommendations contained in the
report, they did not express any disagreement with the problems presented. This is a starting
point from which agreement can be reached on the specific recommendations contained in
the report. We look forward to meeting with            financial and program managers to
discuss solutions to the internal control problems.
                                                                                        APPENDIX IV
                                                                                               Page 





                          SCHEDULE OF PROPOSED AUDIT

                                 ADJUSTMENTS




  Financial Statement                    Proposed by Auditors

  The following table shows the proposed financial statement adjustments, which resulted from
  our analysis of         direct loan program and the accounts payable line item. Management
  concurred with and recorded three of the four proposed adjustments.

                                 Summary of Proposed Adjustments
                                                                                             Corrected
        Account                   Debit Amount Credit Amount Likelv Misstatement

  1.    Bad Debt Expense                    13,080                                            Known No
               Allowance for Loss
Purpose:      To reflect increases to the allowance account for uncollectible direct loans resulting from
               consideration of loan payment history. (See pages     13)


 2.    Accrued Interest                                                                      Known Yes
               Interest Income
 Purpose:      To correct accrued interest calculation earned on direct loans as of September 30, 1998.
 (See page 14)


 3.    Accounts Payable                                                     N/A             Known Yes
              Expenses
 Purpose:     To reverse original accounts payable entry. (See pages 14-15)


 4.    Expenses                                                              N/A            Known- Yes

                Advance

 Purpose:       To reduce advances by the amount of “no-pay” voucher received but not processed for

                services rendered as of September         (See pages 16 
 17)
